<html>
<title> - IN OUR OWN BACKYARD: CHILD PROSTITUTION AND SEX TRAFFICKING IN THE UNITED STATES</title>
<body><pre>[Senate Hearing 111-587]
[From the U.S. Government Publishing Office]


 
                                                        S. Hrg. 111-587

  IN OUR OWN BACKYARD: CHILD PROSTITUTION AND SEX TRAFFICKING IN THE 
                             UNITED STATES
=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2010

                               __________

                          Serial No. J-111-74

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]



                    U.S. GOVERNMENT PRINTING OFFICE
58-003 PDF              WASHINGTON : 2010
________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ec8b9c83ac8f999f988489809cc28f8381c2">[email&#160;protected]</a> 











                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
                      Joseph Zogby, Chief Counsel
                 Brooke Bacak, Republican Chief Counsel
                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    60
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    61
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................    64
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     3
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    68

                               WITNESSES

Alvarez, Anita, State's Attorney, Cook County, Chicago, Illinois.    11
CdeBaca, Luis, Ambassador-at-Large, Office to Monitor and Combat 
  Trafficking in Persons, U.S. Department of State, Washington, 
  DC.............................................................     6
Lloyd, Rachel, Executive Director and Founder, Girls Educational 
  & Mentoring Services, New York, New York.......................    14
Phillips, Beth, U.S. Attorney, Western District of Missouri, 
  Kansas City, Missouri..........................................     9
Shaquana, Youth Outreach Worker and Trafficking Survivor, New 
  York, New York.................................................    18
Wyden, Hon. Ron, a U.S. Senator from the State of Oregon.........     3

                         QUESTIONS AND ANSWERS

Responses of Anita Alvarez to questions submitted by Senator 
  Coburn.........................................................    32
Responses of Beth Phillips to questions submitted by Senator 
  Coburn.........................................................    36

                       SUBMISSIONS FOR THE RECORD

Allen, Ernie, President & CEO, national Center for Missing & 
  Exploited Children, Alexandria, Virginia, statement............    41
Alvarez, Anita, State's Attorney, Cook County, Chicago, Illinois, 
  statement......................................................    45
Brownback, Hon. Sam, A U.S. Senator from the State of Kansas, 
  prepared statement.............................................    50
CdeBaca, Luis, Ambassador-at-Large, Office to Monitor and Combat 
  Trafficking in Persons, U.S. Department of State, Washington, 
  DC, statement..................................................    52
Johnson, Lynne, Advocacy Director, Chicago Alliance Against 
  Sexual Exploitation, statement.................................    66
Lloyd, Rachel, Executive Director and Founder, Girls Educational 
  & Mentoring Services, New York, New York, statement............    70
Phillips, Beth, U.S. Attorney, Western District of Missouri, 
  Kansas City, Missouri, statement...............................    74
Shaquana, Youth Outreach Worker and Trafficking Survivor, New 
  York, New York, statement......................................    81
Smith, Linda, Founder and President, Shared Hope International, 
  Vancouver, Washington, statement...............................    82


  IN OUR OWN BACKYARD: CHILD PROSTITUTION AND SEX TRAFFICKING IN THE 
                             UNITED STATES

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2010

                               U.S. Senate,
          Subcommittee on Human Rights and the Law,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:06 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin and Franken.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. Welcome. I apologize for being a few 
minutes late this morning. This hearing of the Human Rights and 
the Law Subcommittee will come to order.
    Our hearing is entitled ``In Our Own Backyard: Child 
Prostitution and Sex Trafficking in the United States.'' The 
sexual exploitation of our children is a criminal problem; it 
is a social problem; it is a human rights problem.
    President Obama has called human trafficking ``a debasement 
of our common humanity.'' President Bush said, ``The trade in 
human beings for any purpose must not be allowed to thrive in 
our time.''
    Congress has worked on a bipartisan basis to combat human 
trafficking, both in the United States and in foreign lands. 
During the past decade, we have passed four major anti-
trafficking laws with strong bipartisan support to advance our 
strategy known as the ``3 P'' approach: punishing traffickers, 
protecting victims, preventing trafficking crimes.
    But despite the efforts of Congress and the executive 
branch, the scourge of human trafficking continues to plague 
our Nation and our world. There is no more heartbreaking part 
of this problem than the sexual exploitation of children.
    Recently I saw a powerful documentary, along with Senator 
Wyden--it was actually at the home of Senator Boxer who invited 
us over. It was a documentary entitled ``Playground,'' and it 
was directed by a visionary filmmaker named Libby Spears, who 
is with us today. Libby, raise your hand so people will know 
that you are here and will come to appreciate the work that you 
have done.
    I would like to show, if I can, a short, 4-minute excerpt 
from this documentary which had such a profound impact on 
Senator Wyden and myself.
    [Videotape showed.]
    Chairman Durbin. Libby Spears, thank you. I know when we 
met you said that you had started your research on this issue 
looking overseas at the international trafficking, and somebody 
said you ought to look at home. And I am glad you did and 
opened our eyes to this, and thank you for your inspiration 
that led to this hearing today, and I hope it leads to new laws 
that will protect these children and deal with them in the 
right, humane way.
    This documentary opened the eyes of Senator Wyden and 
myself and many others--Senator Boxer. It is estimated that 
over 100,000 American children became sex-trafficking victims 
last year and every year. Studies indicate the average age of 
entry into prostitution is 13. Many child-trafficking victims 
are chronic runaways who are fleeing sexual and physical abuse 
in their homes.
    Americans tend to think of forced prostitution as the 
plight of women from other countries locked up in brothels. 
That is indeed a problem. But equally scandalous is the 
violence involving America's teenage girls.
    This documentary forces us to confront this reality and 
raises another challenge that we will discuss with our 
witnesses at today's hearing: the need to treat sexually 
exploited children as victims and survivors, not as criminals. 
In many States, child-trafficking victims are often arrested 
rather than assisted. These victims are badly in need of basic 
services like medical care, housing, and counseling, and a jail 
cell isn't the answer. We must change the way our criminal 
justice system treats the victims.
    Congress has tried to help. When we passed the Trafficking 
Victims Protection Act 10 years ago, we said that all children 
who were involved in commercial sex crimes are victims and 
should be treated accordingly, entitled to protection, 
services, and restitution.
    But at the State and local level, child sex-trafficking 
victims are still in many places treated and considered 
criminals. Nearly every State in the Nation allows children of 
any age to be prosecuted for prostitution--even though children 
are too young to consent to sex with adults. By charging 
children with crimes, we compound the harm.
    My friend and former colleague--and I note that Senator 
Franken is here, but my friend and former colleague, the late 
Senator Paul Wellstone of Minnesota, was a great champion in 
the fight against human trafficking. He pointed out in a Senate 
floor speech in the year 2000, 10 years ago, and I quote: ``The 
bitter, bitter, bitter irony, colleagues, is that quite often 
the victims are the ones who are punished, and these mobsters 
and criminals who are involved in the trafficking of these 
women and girls with this blatant exploitation get away with 
literally murder.''
    We have created a legal dichotomy in America in which the 
Federal Government views prostituted children as victims, yet 
most States treat them as criminals. If State laws treated 
child prostitution more like human trafficking, then State 
social service agencies could play a more important role.
    Now, the State of New York has been a leader in rising to 
this challenge. They recently passed a ``safe harbor'' law. 
Under the law, trafficking victims are given services, not 
sentences. Safe harbor laws recognize that the sexual 
exploitation of children is a child welfare issue. One of our 
witnesses today, Rachel Lloyd, played an important role in 
advocating the passage of that New York law, and I am glad that 
she is joining us.
    Congress should build on New York's work and do the best we 
can to encourage that on a statewide basis across our Nation. I 
have spoken to my Ranking Member, Senator Tom Coburn, who is 
interested in pursuing legislation to accomplish that goal.
    State and local governments will have to play the lead role 
in changing the way we look at child sex trafficking, because 
they are on the front line, but I believe that we can help them 
by taking additional steps here on Capitol Hill.
    I have two colleagues who are here today I would like to 
recognize. First, on our panel here, Senator Franken, would you 
like to make an opening statement?

STATEMENT OF HON. AL FRANKEN, A U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Franken. Well, I just want to say that Paul 
Wellstone was a leader on this issue, and this is something 
that Minnesota has had its eye on and has been addressing. And 
it is just a bigger problem than most Americans would ever 
imagine, and I want to thank you, Senator Wyden, for taking 
leadership on this, and thank you, Mr. Chairman, for calling 
this hearing.
    Chairman Durbin. Thank you.
    Senator Wyden and I, as I noted, learned about this--we had 
known about it, but learned about it through the Libby Spears 
documentary together, and he came back and introduced 
legislation on the issue, and I am glad you are here today, 
Senator Wyden. The floor is yours.

 STATEMENT OF HON. RON WYDEN, A U.S. SENATOR FROM THE STATE OF 
                             OREGON

    Senator Wyden. Mr. Chairman, thank you, and filibusters are 
popular around here, but you will not get one from me today. I 
think that we have got a terrific panel of witnesses. If I can 
make my prepared remarks a part of the record, maybe I could 
just highlight some of the concerns.
    Chairman Durbin. Without objection.
    Senator Wyden. First, my thanks to you. Again and again, 
Mr. Chairman, you and Senator Franken are standing up for 
people who do not have power and do not have clout. The people 
that we are talking about today, these youngsters, young women, 
for example, what they have been subject to, in my view, is 
slavery, pure and simple. And they do not have any power. They 
do not have any clout. They do not have any political action 
committees. They do not have people who lobby, you know, for 
them naturally unless Libby Spears and some of these great 
people we have got here today can come forward.
    So what you and Senator Franken are doing is using this as 
a bully pulpit to, in effect, say to our country that on our 
watch we are not going to tolerate this kind of moral blot. We 
are not going to tolerate sacrificing so many of our young 
people, particularly to these pimps.
    Now, you highlighted a couple of the key facts, Mr. 
Chairman--the question of 100,000 children that are trafficked. 
I want to make the point about how much money is involved in 
this.
    We saw in Libby's terrific documentary this instance of a 
person flying in from around the world, coming just to take 
advantage of one youngster. We learned that a pimp can make 
$200,000 a year trafficking just one victim. And, of course, 
the pimps traffic multiple victims at a time. So there is a 
huge upside, an economic bonanza for these pimps in sex 
trafficking. It is a multi-billion-dollar business with very 
little downside. The pimps have all the power. Once the girls 
are under their control, it is very hard for them to escape. 
And pimps essentially use violence to control and traumatize 
young girls. Often they move them from one city to another.
    One of the reasons that I got involved in this early, Mr. 
Chairman, is we found that up and down Interstate 5, which is 
our main transportation artery in Oregon, essentially there are 
a lot of dark areas that pimps can hide out in these kinds of 
areas, move the young women from city to city. And that part of 
Oregon, I-5, which has really been a magnet, unfortunately, for 
this kind of activity, is not alone. There are other parts of 
the country that face much the same thing, and once these young 
girls get involved with the pimps, the law enforcement people 
tell us it is almost impossible to break the grip that the 
pimps have on the young women, and breaking that grip is 
absolutely key so that, in effect, you can get to the young 
women the help through a kind of comprehensive, what is in 
effect a multidisciplinary approach that involves social 
services, help with law enforcement folks, and really have a 
full-court press in the community to reduce sex trafficking.
    One of the principal concerns that we learned is that we 
desperately need shelters to give the trafficking victims a 
place that is safe from the pimps. This is where they can get 
counseling and services. And without shelters for the victims, 
the law enforcement authorities cannot begin to get the victims 
to feel comfortable enough, to feel safe enough to come forward 
to get the kind of testimony that builds the case, busts the 
pimps, and gets them behind bars where they belong.
    Now, in the whole country right now, there are only about 
70 shelter beds for sex-trafficking victims. Only 70 across our 
50 States. So the pimps are just playing the odds.
    I mentioned the big money that is involved, the $200,000 
for one victim. The pimps know that as a result of not having 
shelter beds, the victims are going to be cut loose and be 
unprotected pretty quickly after they have been arrested. So 
they know the chance of their being prosecuted for taking 
advantage of these girls is quite low.
    So we have got to turn this around. Senator Cornyn and I 
introduced S. 2925, the Trafficking Deterrence and Victims 
Support Act. We now have bipartisan support for these efforts. 
Senator Franken and you both noted, correctly, along with the 
inspiration that Paul Wellstone gave us years ago, and through 
this we are going to be able to set up a number of block grant 
programs to test out the very best approaches that are being 
used in our country. These would be awarded on a competitive 
basis to State and local government entities that have 
developed models which we know, once put in place, could be 
copied elsewhere.
    Grantees would be required to create shelters where the 
trafficking victims would be safe from the pimps. You would get 
services as part of this program, mental and physical health 
care, treatment for substance abuse and sexual abuse, and you 
would also provide the victims with the food, clothing, and 
other necessities. And here in the States from these young 
girls, we have learned that is absolutely essential. They have 
not had these kind of lifeline services, so the pimps play to 
the fact that they will give them money for food and shelter, 
and that is part of the dependency that is created by the 
pimps.
    One last point, Mr. Chairman, because I know you want to go 
to the witness, is S. 2925 will address another major issue 
that is part of this spiral of problems that the young people 
face, and that is, runaway children. One-third of runaway 
children are lured into prostitution within 48 hours of leaving 
home. And the information that we picked up, the data indicates 
that kids who have run away multiple times are at the greatest 
risk of being drawn into prostitution.
    So we need to have more information and more help to those 
individuals, and access to that individual is going to allow 
law enforcement authorities to see the patterns of runaway 
youngsters so they could help the kids that are at great risk.
    Finally, Mr. Chairman, let me note that we have got 
Ambassador Luis CdeBaca of the State Department. It is high 
time that the State Department increases the visibility and the 
priority of this effort, and under Ambassador CdeBaca and 
Secretary Clinton, we are seeing that effort. They have really 
stepped up and, like you are doing this morning, have made this 
a priority for them. They are using their bully pulpit. 
Ambassador CdeBaca is out around the world.
    And on this international point, which you noted in your 
opening remarks, what we have picked up is that if you make a 
difference with an aggressive approach in our country, it will 
help trying to deal with the international aspect of this 
problem. But, unfortunately, without the domestic component 
that we are advocating in this bipartisan legislation, the 
international effort does not reach its full potential in terms 
of delivering results against child prostitution.
    So we have got some terrific witnesses. Libby Spears 
delivered a real wake-up call for our country. You are going to 
be hearing from a number of groups--the Polaris Project, Shared 
Hope, the National Center for Missing and Exploited Children. 
And I think we all understand this is a chance for us on our 
watch to make a difference, deliver a knock-out punch to these 
pimps. And I look forward to working with you and colleagues on 
both sides of the aisle to get that done.
    [The prepared statement of Senator Wyden appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Senator Wyden. We are going to not 
only consider your legislation and others, but try to engage 
more of our colleagues in this effort, and your leadership is 
invaluable. Thanks for being with us today.
    I would like to ask, if they would, the first panel of 
witnesses to come take their seats, and we will proceed to 
swear them in. Before that, without objection, I would enter 
into the record a statement by the Chairman of the Senate 
Judiciary Committee, Senator Patrick Leahy, and also statements 
from Senator Feingold and Senator Brownback. Without objection.
    [The statements appears as a submission for the record.]
    Chairman Durbin. Well, the first thing we do in this 
Subcommittee is to swear in the witnesses, so if you all would 
please rise and raise your right hand. Do you affirm that the 
testimony you are about to give is the truth, the whole truth, 
and nothing but the truth, so help you God?
    Ambassador CdeBaca. I do.
    Ms. Phillips. I do.
    Ms. Alvarez. I do.
    Ms. Lloyd. I do.
    Shaquana I do.
    Chairman Durbin. Let the record reflect that all the 
witnesses answered in the affirmative.
    Our first witness has been at least indirectly introduced. 
He is Ambassador Luis CdeBaca, serves as senior adviser for the 
Secretary of State and directs the State Department Office to 
Monitor and Combat Trafficking in Persons. The Ambassador 
chairs the Senior Policy Operating Group, an interagency 
working group coordinating the Obama administration's efforts 
to fight trafficking not only abroad but here in the United 
States. The Ambassador was previously a prosecutor in the 
Justice Department where he worked on the largest human-
trafficking prosecution in our Nation's history. He received 
the John Marshall Award, the Department's highest litigation 
honor, and the Freedom Network's Paul and Sheila Wellstone 
Award. He served as counsel on the House Judiciary Committee, 
graduated from the University of Michigan Law School and Iowa 
State University.
    Mr. Ambassador, proceed.

   STATEMENT OF LUIS CDEBACA, AMBASSADOR-AT-LARGE, OFFICE TO 
 MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Ambassador CdeBaca. Good morning. Thank you, Senator 
Durbin. I would like to thank all the members of the Committee 
for convening this critical briefing. I have a more fulsome 
version of these remarks which I would ask to be included in 
the record.
    Chairman Durbin. Without objection.
    Ambassador CdeBaca. As President Obama's Ambassador- at-
Large to Combat Human Trafficking, I spend a lot of time not 
only observing the situation in the world and trying to work 
with our international partners, but really thinking with our 
partners across the agencies and in the State and local 
governments as to how we can best coordinate these efforts in 
the fight against contemporary forms of slavery. And I think 
that one of the things that we see is that while great strides 
have been made in the last decade, there remain a lot of things 
that we need to do at home and abroad in this movement.
    As we fight against commercial sexual exploitation, we are 
lucky to have such able hands as the folks at the Justice 
Department and HHS and others and a host of committed actors in 
State and local governments because, sadly, we find children 
enslaved not just in commercial sex--the topic at hand today--
but also in agricultural work, factories, and private homes. 
And, sadly, one of the things that we see in those cases, often 
looked at as labor-trafficking cases, is ongoing and continual 
sexual abuse of those children as well.
    We recognize that a comprehensive child protection approach 
addresses all vulnerabilities and all forms of suffering, and 
we look to address the whole child rather than the commonly 
held definitions of ``deserving victims'' that so often come 
into this.
    And so when we look at that, we look at how we can get past 
the notion of someone who deserves to be treated a particular 
way or this or that. We have to step back, I think, for a 
moment and be very clear that it does not matter whether the 
victim once consented to do this. It does not matter if the 
victim returned to the trafficker after he or she had been 
freed. It does not matter whether the enslavement was through 
chains of mental dependency or psychological manipulation as 
opposed to being physically locked up. And it does not matter 
if their trafficker was at times nice to them or gave them 
presents or if they veered between feelings of love and fear--
so often what we see in issues of child prostitution.
    Historically, countries have confronted the issue with a 
lot of judgment and less compassion. The consequences, 
unfortunately, are borne by the most vulnerable: the person who 
is locked up for prostitution or immigration offenses, without 
even a cursory inquiry as to whether or not they were abused 
the woman whose suffering is compounded by the refusal of her 
government to accept her back or to be seen as a person with an 
identity independent from the man in her family, who may reject 
her, or worse, as having been tainted by what she went through; 
and, as well, boys stigmatized by society's refusal to 
acknowledge that they too could be victims of sex trafficking. 
They often suffer in silence and are overlooked in this debate.
    As we build a counter-trafficking community in police 
forces and NGO's around the world, we can definitely say that 
trafficking victims, especially children in prostitution, may 
not all be saints, may not understand that they are victims, 
may consider our help to be unwanted interference, and may even 
be in love with those who abuse them. But that does not make 
them any less deserving of a compassionate response. Indeed, I 
think that these tendencies require more, not less, commitment 
and engagement on our parts.
    As President Obama has repeatedly emphasized about our 
general approach to the promotion of human rights, our ability 
to help other governments combat trafficking is only as strong 
as the example that we set and provide through the strength of 
our domestic response. We can only lead if we are honest about 
our challenges as well as our accomplishments. And on that note 
we have submitted to the U.N. Committee on the Rights of the 
Child our periodic reports on the implementation of the two 
Optional Protocols to the Convention on the Rights of the 
Child: the Optional Protocol on the sale of children, child 
prostitution, and child pornography; and the Optional Protocol 
on the involvement of children in armed conflict. These reports 
are an ambitious undertaking and do exactly what we say needs 
to be done, which is to go to all of the relevant Federal 
actors, all of the relevant State and local actors, and to get 
critical input from nongovernmental organizations about how the 
United States is doing. And we present that to the world not 
just in the U.N. context, but in other multilateral agencies--
the United Nations, the G-8, the OSCE.
    Next week, we will be giving--we are working with the 
Organization for American States to develop a regional plan of 
action on trafficking, which will include actions to assist and 
protect children.
    I would like to briefly summarize what we have learned 
through those efforts, the notion of the technology that the 
offenders use, but also how the Internet can be used to 
identify and apprehend traffickers and other predators; the 
notion of the interplay between previous physical or sexual 
abuse that the victim may have suffered and the trafficking in 
which we find them.
    But in addition to sexual exploitation, many girls and boys 
are also forced to steal, beg, or sell drugs on the streets so 
that their interactions with police are not necessarily being 
seen as a rescue but, rather, dealing with the crime problem 
that that child might present, and how we need to look past 
those things and protect those children.
    I would be remiss if I did not mention how critical the 
nongovernmental organizations, the partnerships are in this, 
not only because they often fill the gap in taking care of the 
victims, but also because they serve as the conscience of the 
community and often are more than willing to point out to us 
what we can do to improve. And I think that that is something 
that we should welcome as we go forward.
    As Secretary Clinton has stressed, our credibility and 
leadership on this issue is going to be strengthened by 
undertaking an honest self-assessment and ranking ourselves in 
the annual Trafficking Report. I agree with Secretary Clinton 
that the United States, when measured against the minimum 
standards that Congress set forth 10 years ago in the TVPA, has 
a very positive story to tell of engagement, innovation, and 
accomplishment here at home. And we are working with our 
interagency colleagues to carry out that collaborative 
assessment of efforts across the U.S., including the ever-
increasing efforts of our State and local partners.
    In closing, we have to remember for whom we work. When I 
was a prosecutor, a girl told me how scared and alone she felt 
when they would bring the clients in to her. With interagency 
partners and NGO's, we got her to safety and we punished the 
man who had done that to her. And your leadership and 
commitment ensures that the United States can say to children 
like her around the world that we will not turn a blind eye to 
that abuse.
    Thank you, Senator.
    [The prepared statement of Ambassador CdeBaca appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Ambassador CdeBaca.
    Our next witness is Beth Phillips. She is the U.S. Attorney 
for the Western District of Missouri in Kansas City. She is the 
Justice Department's representative at this hearing, and thank 
you for being here. She has been a prosecutor at both the local 
level and Federal level. She served in the Computer Crimes and 
Child Exploitation Unit of the office she now heads. She has 
served on the Board of Directors of the Metropolitan 
Organization to Counter Sexual Assault and also the Board of 
Directors of the Child Protection Center, which provides crisis 
intervention to sexually abused children. Ms. Phillips earned 
bachelor's and master's degrees at the great University of 
Chicago in my home State of Illinois, and she has a J.D. from 
the University of Missouri.
    Thank you for being here. We look forward to your 
testimony.

STATEMENT OF BETH PHILLIPS, U.S. ATTORNEY, WESTERN DISTRICT OF 
                MISSOURI, KANSAS CITY, MISSOURI

    Ms. Phillips. Good morning, Chairman, and I want to thank 
you and Ranking Member Coburn and members of this Committee for 
holding this hearing today. As you may know, I was sworn in as 
U.S. Attorney on December 31, 2009, and previously, as 
Assistant United States Attorney, I was the Project Safe 
Childhood Coordinator for our district. It is an honor to 
appear before the Committee today to discuss the efforts of the 
Department of Justice to combat domestic prostitution of 
children--that is, the commercial sexual exploitation of 
American children by American citizens.
    Children who are victimized through prostitution come from 
all socioeconomic backgrounds and all races. It is not 
necessarily poverty that makes these children vulnerable. 
Runaways, throwaways, children who are chronically truant, or 
who suffer physical or sexual abuse in the home--these are the 
types of children who are targeted by pimps. The pimps purport 
to offer these children the love and attention that they never 
had but, rather, instead manipulate them and force them into 
prostitution.
    Unlike international sex traffickers, who incur the risk 
and expense of moving children illicitly across international 
borders, American pimps can recruit children at almost no 
monetary cost, knowing that they can easily replace one child 
with another. They have little fear of getting arrested and 
prosecuted because of their confidence in their ability to keep 
the victims from cooperating with law enforcement.
    As one example in my own district, the Western District of 
Missouri, we prosecuted Don Elbert II, a street pimp to three 
sisters--a 15-year-old and two 13-year-old twins. The defendant 
forced the girls to work as prostitutes every night and took 
all the money they earned in exchange for providing them with 
food, clothing, and housing. The girls were afraid to leave the 
defendant because he frequently became violent and threatened 
them. For example, on one occasion he put his hands around the 
neck of one twin and said, ``I will kill all of you.''
    After Elbert's arrest, all three girls were hospitalized 
and were treated for post-traumatic stress disorder and 
sexually transmitted diseases. They were given tests which 
indicated that they had very low levels of intellectual 
functioning.
    In 2003, the FBI and the Department of Justice's Child 
Exploitation and Obscenity Section, and the National Center for 
Missing and Exploited Children launched the Innocent Lost 
Initiative to focus on the rescue and recovery of domestic 
victims of child prostitution.
    The heart of the initiative is the establishment of local 
task forces that bring together State and Federal law 
enforcement agencies, prosecutors, and social service providers 
to establish and employ a multi-faceted, victim- centered 
strategy designed to identify the child victims, provide them 
the services they need, and to prosecute the offenders. By the 
end of last year, 34 task forces and working groups had been 
established throughout the United States. According to the FBI, 
in the last 6 years the Innocence Lost Initiative has resulted 
in the identification of almost 900 child victims of 
prostitution, some of whom were identified as missing by the 
National Center for Missing and Exploited Children. The 
initiative has led to 510 convictions in State and Federal 
courts and resulted in the seizure of over $3 million of real 
property, vehicles, and monetary assets.
    Over 1,500 local, State, and Federal law enforcement 
officers representing 112 separate agencies have participated 
in these ongoing enforcement efforts. The Department believes 
the only way to successfully make defendants account for their 
crimes is through this type of concerted group effort.
    A successful prosecution often turns on the testimony of 
children who have suffered severe forms of physical and 
psychological abuse at the hands of their pimps, who may lack a 
supportive family structure, and who may have become addicted 
to drugs. These children may feel ashamed and distrustful or 
even feel as though nothing wrong has occurred. Quite often 
they feel as though they are in love with their abusers and do 
not want to testify against them. It takes a great deal of time 
for law enforcement officers, prosecutors, and victim witness 
advocates to overcome these barriers and gain the victim's 
trust and cooperation.
    For example, one case involving conspiracy to commit sex 
training of children in Anchorage, Alaska, required daily 
commitment from the FBI and the U.S. Attorney's Office victim 
witness specialist and coordinators over 3 years, from the 
beginning of the investigation until completion of the trial in 
2008. This included five victim witness professionals who were 
flown into Alaska for the months surrounding the trial, not to 
mention the many agents and three prosecutors who worked on the 
trial itself.
    Compounding the difficulty is a dearth of secured housing 
and specialized services for the young victims. Without secured 
housing, it is difficult for law enforcement officers to 
maintain the steady contact with the victims necessary to build 
a rapport and build trust. While general resources might be 
available at the State level, there are very little resources 
that are capable of addressing the full range of trauma 
experienced by these children.
    In summary, the Department of Justice is committed to 
continuing its multi-pronged attack against the victimization 
of American children. From a training and grantmaking 
perspective, we continue to assist local communities in 
understanding and responding to this issue. From a law 
enforcement perspective, our efforts are focused on building 
capacity through the establishment and training of task forces 
to successfully apprehend and prosecute offenders who make 
money off the backs of children.
    Thank you, Mr. Chairman and members of this Committee, for 
your time and attention to this important issue.
    [The prepared statement of Ms. Phillips appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Ms. Phillips.
    Our next witness is Anita Alvarez, who is the State's 
Attorney in Cook County, Illinois, which, of course, is the 
home county of the city of Chicago. She is leading the second 
largest prosecutor's office in America. She was elected to this 
position in 2008, a stunning victory in the primary, to the 
surprise of many. She became the first woman and first Hispanic 
elected as Cook County State's Attorney. She previously served 
in the office for 22 years as a prosecutor and supervisor. She 
has handled all kinds of cases ranging from homicide to child 
sexual exploitation. She has been named Person of the Year by 
Chicago Lawyer Magazine and State's Attorney of the Year by the 
Illinois State Crime Commission. She graduated from Loyola 
University in Chicago and Chicago Kent College of Law, and she 
is also a Mom.
    Ms. Alvarez, thank you for joining us. Please proceed with 
your testimony. Make sure your microphone is on there.

  STATEMENT OF ANITA ALVAREZ, STATE'S ATTORNEY, COOK COUNTY, 
                       CHICAGO, ILLINOIS

    Ms. Alvarez. Thank you, Mr. Chairman and members of the 
Committee. Thank you for inviting me here to discuss this very 
important issue.
    As you know, human trafficking is an increasing problem in 
the United States, and the sex trade is one of the most 
lucrative areas of the whole trafficking industry. Over the 
years, criminal enterprises have made a fortune in my county 
and in States across the Nation exploiting women and children 
and destroying lives and communities in the process.
    Last year the Illinois Criminal Justice Information 
Authority funded a study of young women involved in the sex 
trade in the Chicago area. Seventy-three percent of the 
participants surveyed reported that they had started in the sex 
trade before the age of 18. Almost one-third of those surveyed 
stated that the reason they started in the sex trade was 
because they owed the individual who had recruited them because 
of the provision of food, clothing, or gifts.
    One survey respondent related that she turned to 
prostitution as a freshman in high school and that she would 
turn tricks after school because her mother was addicted to 
drugs and she needed the money to buy food and clothing. In a 
prostitution case that my office handled recently, one juvenile 
related that she did not wish to pursue criminal charges 
against her pimp because, and I quote, ``He gets me a Subway 
sandwich whenever I want one.''
    It is clear that when vulnerable young women are equating 
the trade of sex for a deli sandwich, we all must realize the 
agonizing human toll that this problem is taking on our young 
generation and potentially generations to come. These juveniles 
are engaging in ``survival sex''--exchanging sex for food, 
clothing, or a safe place to sleep.
    Cases such as these also demonstrate the challenges that we 
face on the local level in prosecuting juvenile prostitution 
and sex crimes.
    First and foremost--from the perspective of the criminal 
offender--the economic gain of child prostitution or 
trafficking greatly outweighs the risks. There is very low 
overhead in terms of cost for offenders, and the crime is 
rarely detected because it is difficult for law enforcement to 
identify minors engaged in juvenile prostitution or 
trafficking.
    Another challenge that law enforcement faces in prosecuting 
these cases is that most children will not self-identify or 
cooperate with police and they identify with their pimp or 
purveyor as someone who they can rely on or sometimes even 
love. They are typically young girls from troubled backgrounds 
who have been sexually victimized, have low self-esteem, and 
essentially a total lack of options in their lives--all of 
which makes this crime a potential ``perfect storm'' for street 
gangs or other organized crime entities.
    As a career prosecutor who has tried countless gang-related 
homicides that have occurred on the streets of the city of 
Chicago, I understand fully the nature and scope and influence 
of street gangs. They are increasingly sophisticated and profit 
oriented, and human trafficking fits well into their criminal 
enterprise. In addition to being able to intimidate the victim 
and her family, the gang members can also control the victim 
through sex and drugs.
    An extremely disturbing example of this occurred in the 
State of Illinois in an investigation that originated out of 
Ottawa, Illinois, in the LaSalle County area. The LaSalle 
County State's Attorney tried and convicted four people in 2008 
on criminal drug conspiracy charges in connection with a gang-
controlled heroin and crack cocaine distribution ring that was 
operating between Chicago and the LaSalle-Peru area in our 
State.
    My office assisted in the investigation and helped to 
prepare the conspiracy indictment as well as the search warrant 
executed at a Chicago home where the drugs were being cooked, 
cut, and prepared for distribution. In that particular case, 
the gang leaders were using 17- and 18-year-old girls to ``body 
pack'' the narcotics for smuggling from Chicago to LaSalle 
County. And in the course of their involvement, the girls 
became addicted to the heroin and were videotaped having sex 
with gang leaders. In a particularly disturbing and chilling 
video seized in this investigation, one of the gang leaders is 
shown removing a bag of heroin from the vagina of one of the 
teenaged victims.
    When it comes to prosecuting child prostitution, my office, 
in practice, does not charge juveniles who are arrested on 
prostitution-related offenses. We understand this child is not 
a criminal but, rather, a victim who needs support, services, 
and a safe future. All too often, making them safe has proved 
to be particularly challenging because, in the past, the 
traditional prosecution of juvenile sex trafficking was 
reactive and far too dependent upon victim testimony.
    As a career prosecutor and a newly elected State's 
Attorney, it has occurred to me that the traditional approach 
we have taken with juvenile prostitution has simply not been 
effective on many levels. We are not convicting the organized 
groups of individuals who are perpetuating this industry. Even 
more importantly, we are not able to effectively offer the 
services that these young women need to help them, keep them 
safe, and empower them to leave the sex trade once and for all. 
It seems to me that the premise of removing one child from the 
situation only to have another step in and fill her place is 
not a good one.
    With this in mind, I created an Organized Crime/Human 
Trafficking initiative last July as part of the Special 
Prosecutions Bureau within my office. Along with our law 
enforcement partners, both State and Federal, my human-
trafficking prosecutors have been conducting long-term, 
proactive investigations into these organized crime targets. 
Suffice to say, this covert work is proving fruitful, even 
though at this point I could not discuss the investigations 
with you.
    Additionally, I have taken advantage of the size of my 
office--the second largest in the Nation--and developed new 
methods for collection and centralization of intelligence 
regarding human-trafficking offenders. Given the daily 
interaction between local law enforcement and those forced to 
work in the sex trade, crucial leads arise on a recurring basis 
within the various parts of my office, including misdemeanor 
cases, domestic violence, auto theft, sex crimes, felony 
review, cold-case murder--all of these different areas. In many 
cases, the defendants or victims in simple sexual assault or 
domestic violence cases possess key information concerning 
human trafficking. Under my Human Trafficking initiative, we 
are now working to develop and funnel this intelligence to a 
dedicated team of prosecutors, allowing us to ``connect the 
dots'' and focus our resources in the right direction.
    As part of this coordinated approach against human 
trafficking, my prosecutors have also continued to work with 
the Chicago Police Department and other agencies to reorganize 
the regional task force. We are working to specifically train 
officers working vice to identify and investigate human 
trafficking--especially those operations involving the 
exploitation of children. With the assistance of the Chicago 
Police Department, these ongoing efforts will not only view 
prostituted children as victims, rather than criminal 
defendants, but also hold accountable the individuals and 
groups truly responsible for these horrific crimes.
    Equally as important, my human-trafficking team is building 
direct coalitions with social service providers and other 
NGO's, thus enabling such groups to assist police during HT 
takedowns and share their investigative leads with law 
enforcement. With due regard for client confidentiality and 
consent, we are fostering the lines of communication necessary 
for social service providers to share their information with 
us, not just about human traffickers, but also concerning 
potentially corrupt public officials who protect them and their 
operations.
    Since the formation of this initiative, the networking plan 
has cast a wide net, including simple things, such as attending 
breakfast meetings, to participation in more formal events, 
such as the launch of the ``End Demand Campaign of the Chicago 
Alliance Against Sexual Exploitation.'' We also took part in 
the human-trafficking summit in San Francisco, and through our 
initiative, my office has been able to share our expertise and 
our NGO connections with Federal agencies, including the 
Department of Homeland Security, ICE, and the U.S. Attorney's 
Office.
    In one recent case, we helped to provide information that 
was instrumental in having a human-trafficking offender 
detained pending trial in a Federal case and further helped 
agents connect victims with temporary housing and social 
services.
    I doubt anyone here would be surprised to hear that our 
greatest setback to date has not been a lack of vision or 
resolve but rather a lack of funding. And I believe that the 
funding is important not just for State and local prosecutors 
but for all the social service providers as well, because we 
all work together and it is essential that they have the 
funding as well as us to make sure that we do everything 
possible to attack this horrific crime.
    Thank you.
    [The prepared statement of Ms. Alvarez appears as a 
submission for the record.]
    Chairman Durbin. Thank you, State's Attorney Alvarez.
    Our next witness is Rachel Lloyd, who is the executive 
director and founder of GEMS, which stands for Girls Education 
and Mentoring Services. It is based in New York. GEMS was 
started in 1998 and is the Nation's largest organization 
offering direct services to domestic victims of child sex 
trafficking. Ms. Lloyd is a nationally recognized expert on 
this issue. She was named as one of the 50 Women Who Change the 
World by Ms. Magazine. Ms. Lloyd is the subject of a critically 
acclaimed Showtime documentary. She received a bachelor's 
degree from Marymount Manhattan College and a master's degree 
from the City College of New York. As a survivor of commercial 
sexual exploitation herself, Ms. Lloyd has a profoundly 
personal understanding of this issue.
    Thank you for being with us today, and please proceed with 
your testimony.

  STATEMENT OF RACHEL LLOYD, EXECUTIVE DIRECTOR AND FOUNDER, 
   GIRLS EDUCATIONAL & MENTORING SERVICES, NEW YORK, NEW YORK

    Ms. Lloyd. Thank you. Thank you, Senator Durbin, Senator 
Franken. Thank you for inviting me here to testify.
    ``In Our Own Backyard'' is a very fitting title for this 
hearing, and I think the predominant response over the last few 
years has been ``Not in my backyard'' to this issue. We have 
had a tough time getting people to recognize that this is 
really happening, and you quoted some stats earlier, 100,000 
youth, 300,000 youth potentially at risk for sexual 
exploitation in this country. So we know when we are faced with 
the reality at this point that this is not something that is 
only happening in other countries to other people's children, 
but it is happening here.
    While the Trafficking Victims Protection Act was passed in 
2000 and reauthorized three times since, it is only really 
recently that there has been a concerted effort to view and 
treat American girls as trafficking victims. As a Nation, we 
have graded and rated other countries on how they address 
trafficking within their borders and yet have effectively 
ignored the sale of our own children within our own borders. We 
have created a dichotomy of acceptable and unacceptable 
victims, wherein Katya from the Ukraine will be seen as a real 
victim and provided with services and support, but Keshia from 
the Bronx will be seen as a ``willing participant,'' someone 
who is out there because she ``likes it'' and who is 
criminalized and thrown in detention or jail. We have turned a 
blind eye to the millions of adult men in this country who 
create the demand because they believe they have the right to 
purchase another human being. We have allowed popular culture 
to glorify and glamorize the commercial sex industry and 
particularly pimp culture. Our policies and economic choices 
have left huge numbers of children at risk for many things, 
including commercial sexual exploitation, simply because of the 
zip code they live in. And we have allowed the juvenile and 
criminal justice systems to treat victims of heinous violence 
and abuse as criminals, while the adult men who have bought and 
sold them go free. We have sent 12-, 13-, 14-year-old girls to 
juvenile detention facilities and ignored the fact that these 
children are not often even old enough to legally consent to 
sex and are, in fact, statutory rape victims.
    Today's hearing signifies how far we have come in beginning 
to address this issue and that there is real change afoot. The 
attention of the Federal Government is critical in addressing 
this issue, and the presence of representatives from law 
enforcement, the Department of Justice, and the State 
Department's Trafficking in Persons Office demonstrates 
significant progress in the recognition of what is happening to 
children in our own backyard. Slowly we are beginning to use 
the appropriate language, recognizing that calling children who 
are victims of rape, sexual assault, and violence prostitutes 
is neither helpful nor accurate. Using the terminology ``child 
prostitution'' or ``child prostitute'' conjures up stereotypes 
and misconceptions about who these children and how we should 
treat them. One of the most important things for the domestic 
violence movement to do was naming what was happening and 
giving it an accurate name. It was violence and it was 
happening in a domestic situation. It is critical that we 
accurately label this crime against children as commercial 
sexual exploitation and domestic trafficking. In doing so, we 
can begin to make the shift from treating these youth as 
criminals, and instead treating them as victims, which they 
rightfully deserve.
    As you mentioned, in 2008, New York State became the first 
State in the Nation to pass legislation that addressed the 
criminalization of children who were sexually exploited and 
trafficked. I would be remiss if I did not note that this 
victory was due in large part to the efforts, courage, and 
voices of the girls and young women at GEMS who journeyed up to 
Albany year after year, who testified before State and city 
legislators, who spoke to the press, who participated in 
awareness-raising events--sharing their stories with the hope 
of changing the system for their peers. New York's Safe Harbor 
for Exploited Youth Act converts charges of prostitution for 
children under 16 to a Person In Need of Supervision case, 
thereby shifting the focus from a juvenile justice issue into a 
child welfare issue. The Safe Harbor Act also mandates the 
creation of a safe house for victims and training for law 
enforcement and service providers who come into contact with 
trafficked and exploited children. While the law does not go 
into effect until April 1, 2010, this year, the shift in New 
York's systemic and institutional response is already 
happening. Across the country, several States are trying to 
follow suit and pass their own version of the Safe Harbor Act. 
It is my hope that in 10 years we will look back and think it 
was ludicrous that we ever prosecuted children for an act of 
prostitution.
    Yet despite gains made in awareness and advocacy, in law 
enforcement prosecuting cases of traffickers and service 
providers recognizing a need for treatment, we still have a 
really long way to go. Children across the country are still 
being treated as criminals. In the last few months alone, GEMS 
has been contacted by organizations and individuals for 
technical assistance and training in cities and States across 
the Nation including San Diego, Tennessee, Hawaii, Miami, 
Tampa, Indiana, Oakland, Portland, Ohio, Connecticut, and 
Philadelphia. All of these places are witnessing the sale of 
children in their own communities, and yet few have any 
resources to address this issue. Currently there are less than 
50 beds in the entire country for victims of sexual 
exploitation and trafficking and approximately a dozen 
specialized service providers. Many States do not have any 
specialized services at all, and those of us who are directly 
serving victims do so with a scarcity of resources and support. 
Monies allocated in the TVPRA for services for domestic victims 
have yet to be appropriated.
    We recognize at this point that incarcerating children for 
their victimization is not only unjust, it just does not work.
    Services work, support works. Love works. When girls are 
afforded the opportunity to be safe and valued and cared for, 
they are able to thrive and flourish. Victims of commercial 
sexual exploitation have myriad needs and require comprehensive 
services. They need to be in an environment where they are 
supported, not judged, cared for, not shamed. They need a 
variety of shelter and housing options, including crisis 
shelter, therapeutic foster homes, residential treatment, and 
long-term independent and transitional living programs. They 
need individual, group, and family counseling and mental health 
treatment to address the intense trauma that they have 
experienced in the commercial sex industry and frequently prior 
to their recruitment. They need medical treatment that is 
sensitive and comprehensive, addressing not only their sexual 
health, but their physical trauma from repeated violence and 
their overall wellness, including lack of proper nutrition, 
pregnancy, parenting issues. They need education, both formal 
and informal, to help them return to school and to learn 
critical life skills which they have been deprived of during 
their exploitation. They need job readiness skills, employment 
training, and viable employment opportunities to help them 
achieve economic independence. They need the opportunity to 
develop their skills and talents, to have fun as young people, 
to create healthy relationships with their peers, and to be 
supported in a strengths-based environment. They also 
critically need to see other girls, young women, and adult 
women who have experienced and overcome the same challenges so 
that they can be empowered to make the transition from victim 
to survivor, from survivor to leader. All of these services 
require resources which are currently limited.
    Commercially sexually exploited and trafficked youth have 
not been high on anyone's agenda or priority list. While 
commercial sexual exploitation can and does happen to any 
child, this issue disproportionately affects low-income 
children, children of color, children who have been in the 
child welfare system, children who have been in the juvenile 
justice system, children who do not have a voice in public 
policy, children who are frequently ignored. Traffickers and 
exploiters know exactly who to target, who will be featured on 
the news, who will be seen as a ``real'' victim. Issues of 
race, class, and prior victimization have ensured that these 
children are frequently invisible in our National dialog, yet 
it is incumbent upon us to make sure that all victims, all 
children and youth are treated with equity and compassion and 
afforded the resources that they need and deserve to heal.
    As a survivor-led organization, GEMS believes that 
survivors need to be at the forefront of this movement and has 
been committed for over a decade to ensuring that the voices 
and experiences of survivors are integral in the development 
and implementation of programs and policies designed to serve 
them. Today, you have an opportunity to hear from Shaquana, a 
young woman, college student, outreach worker, activist, and 
leader who I am incredibly proud and honored to get to work 
with every single day. While Shaquana is an extraordinary young 
woman, she is not unique in her experiences, nor in her 
intelligence, resilience and courage. Every single day at GEMS, 
we serve extraordinary girls and young women who are growing, 
learning, and, most importantly, healing in the community of 
love and support we have created and who are in turn supporting 
and empowering their peers, advocating for change, raising 
public awareness and demonstrating leadership on this issue. If 
teenage girls and young women who have experienced heinous 
violence and exploitation are able to take action and be change 
agents in fighting against commercial sexual exploitation and 
domestic trafficking, it begs the question: What are our local, 
State, and Federal legislators and representatives doing? I 
challenge you today to join our young women in ending the sale 
and exploitation of children in our country.
    Thank you.
    [The prepared statement of Ms. Lloyd appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Ms. Lloyd. You have given a bit 
of an introduction to our next witness here, but I want to say 
a few extra words.
    Shaquana works with Rachel Lloyd at GEMS and is herself a 
child sex-trafficking survivor. For privacy purposes, we are 
not using her last name. She escaped sexual exploitation and 
has an amazing story to tell. She graduated valedictorian of 
her class at Brownsville Academy High School in Brooklyn, New 
York, in 2008. She is attending college at the Borough of 
Manhattan Community College. She has made presentations before 
the New York State Legislature and the Toronto International 
Film Festival.
    Shaquana, thank you for being here today and having the 
courage to share your story with us, and the floor is yours. 
Make sure you push the button that says ``Talk'' so we can all 
hear you. Thank you.

 STATEMENT OF SHAQUANA, YOUTH OUTREACH WORKER AND TRAFFICKING 
                  SURVIVOR, NEW YORK, NEW YORK

    Shaquana Thank you. My name is Shaquana, and I am a 
survivor of commercial sexual exploitation and domestic 
trafficking. I was getting ready to graduate from the eighth 
grade when I met a man in my neighborhood. I shared everything 
about myself with him. He seemed like a complete gentleman. Yet 
at only 14 years old, I was being manipulated and physically 
abused to sell my body for this man who was a pimp. I did not 
have anyone in my life that I could have been completely honest 
with about what I was doing without them judging me. I was 
afraid and often felt like everything I was experiencing was 
all my fault. I was living in this big world, but I felt so 
small and alone. I cried myself to sleep many nights because I 
was very unhappy with my life but had no idea how to escape.
    At only 14, I got arrested and sent to a juvenile detention 
facility. Jail just made me feel even worse. I was made to feel 
embarrassed and ashamed for everything that I had experienced. 
I never received counseling and was left to figure things out 
on my own. It was there, though, that I learned of GEMS through 
the outreach team which was for girls that had been through the 
same things I had been through.
    When I finally got out of jail after several months, I was 
mandated to GEMS. It seemed like all my family and even the 
judge thought jail was what I needed as if I were the criminal. 
My own family thought that I would never amount to anything, 
and it was almost like they stopped caring about me. I started 
going to GEMS and created a new family for myself. It was like 
for the first time in life people understood me and did not 
think that I was crazy.
    It took me a while to fully leave the life behind me, but 
there was that constant hope for me at times when I did not 
have it for myself from GEMS. I did not get out of the life 
until I was 16 years old. I still cannot remember what actually 
happened, but I was beaten and nearly killed by a man who had 
bought me. I woke up in a hospital in New Jersey with my entire 
face broken and fractured, and I needed months of 
reconstructive surgery. At that point I just felt really lucky 
to be alive.
    I started participating in GEMS again, which helped me to 
deal with the trauma that had happened to me. I attended all 
the groups and especially youth leadership, where I learned 
about what it meant to be commercially sexually exploited. It 
was through GEMS that I learned that even though so much had 
happened to me as a young girl it did not mean I would have to 
spend the rest of my life crying. I could be a survivor, which 
meant going back to school, graduating, having real friends, 
and first dates. When I went back to school, I struggled a lot, 
but because I had the support of GEMS, that helped me to begin 
believing in myself, too.
    In 2008, I graduated from high school as the valedictorian. 
That was one of the most happiest days of my life because it 
was a testimony to how much I had overcome. Now I am in 
college. Being in school means a lot to me because at one time 
I did not think I would ever make it.
    At GEMS I now help run our education initiative program. As 
we all know, education is very important, and a lot of our 
girls, after getting into the life, are forced to have to stop 
going to school. Our educational initiative was designed to 
help our girls go back to school and assist them with whatever 
they need help with. Having this program at GEMS is very 
important because at one time I felt like I would never be able 
to do anything productive with my life. But I know now that I 
can. It is important that our members see me as an example and 
know that if I can do, they can, too.
    Today I also work at GEMS as an outreach worker. I travel 
to juvenile detention facilities, group homes, and schools to 
educate girls on the issue of commercial sexual exploitation 
and trafficking. This is very important to me because a lot of 
the times girls have no idea what really goes on, and if I can 
reach them before an exploiter ever does, they will know the 
truth of what that life really offers. I let them know that if 
they have been a victim of trafficking, there is a place where 
they can get help and will not be judged.
    As I travel to juvenile detention facilities, I see the 
same victimization by the staff is still happening to the 
girls, and it is important that I am there to let them know 
that what happens is not their fault. I was a part of helping 
get the Safe Harbor Act passed so that girls will no longer be 
sent to jail for having been commercially sexually exploited. 
Girls will now be recognized as victims and will receive 
services. Most importantly, though, I think the Safe Harbor Act 
will help people see who the real perpetrators are.
    I would like to thank you for listening to my testimony of 
what I have been through as a survivor of commercial sexual 
exploitation and hope that you are able to see how young women 
that have been commercially sexually exploited need support, 
not jail, and that will help them begin rebuilding the type of 
lives that we all deserve.
    Thank you.
    [The prepared statement of Shaquana appears as a submission 
for the record.]
    Chairman Durbin. Shaquana, thank you, and I mean it from my 
heart that you have come here today to tell the story because 
it really puts a face on the issue. And as you are serving as 
an outreach worker and you are in contact with young girls who 
are in ``the life,'' as you call it, what are they looking for 
to leave? What does it take to get them to leave that life?
    Shaquana I think what they have to begin to understand, you 
know, is they start to see that there is a safe place and it is 
something totally different that they probably never had in 
their life, and it takes them time. And they need people that 
are going be patient with them and understand them and see the 
things that they went through and help them to understand that 
they are not a bad person, that it is not their fault, and to 
begin offering them, you know, that you can go back to school 
and that you can start your life entirely over and that what 
happened to you in the past does not mean that this has to be 
how the rest of your life is going to be.
    Chairman Durbin. So are they afraid of the pimps, if they 
leave that the pimps will come after them?
    Shaquana A lot of times girls are scared that even if they 
testify against them, they might get hurt for doing that. A lot 
of times the girls, you know, they are just scared or they love 
them and they do not want to do it. You know, at the time they 
are not ready for that.
    Chairman Durbin. And what do you do? What do you offer to 
them? What do you say to them to try to convince them that it 
is worth the risk?
    Shaquana I think they begin--they have to understand what 
happened to them is wrong and that it was not their fault. A 
lot of times girls feel like it was their choice. And you have 
to show them that, you know, you were manipulated, you know, 
that this person does not care about you, and that this is what 
they are using you for.
    Chairman Durbin. So you were put in jail, and you say in 
your testimony that you were mandated to the GEMS program, 
which I assume means that when you left jail, you had to go to 
this GEMS program.
    Shaquana Yes.
    Chairman Durbin. The jail experience was awful, just 
terrible, as you have described it, but it did result in your 
connecting up with this GEMS program.
    Shaquana I mean, what actually happened was through the 
outreach program coming there, they were able to--that is how I 
met up with them. I was able to find a case manager. They set 
me up with that, and, you know, they told me that I could go 
home to this program; or if I would have never found out about 
GEMS, then I was going to go upstate. So it was through like my 
own luckiness, I guess.
    Chairman Durbin. So, Ms. Lloyd, your GEMS program, how many 
young people like Shaquana are a part of it each year? Have you 
been in existence for a few years now?
    Ms. Lloyd. We have been serving girls and young women for 
over 12 years now. Last year, we served 275, 280 girls and 
young women who were all victims of commercial sexual 
exploitation.
    Chairman Durbin. I was trying to get Shaquana to give us a 
little bit of an idea, a picture of the kind of mind-set that 
the victim brings to a place like GEMS. And I know that self-
esteem is a big issue here. Obviously, it is. You went through 
a long litany and list of things these young people need. What 
would you say is the one thing that really does make a 
difference in terms of their deciding to turn their lives 
around and turn into a success like Shaquana?
    Ms. Lloyd. Honestly, I think it comes down--and this is a 
hard thing to legislate, but I think it comes down to real, 
genuine relationships and support. I think we have a phenomenal 
staff. I think the fact that we are a survivor-led 
organization, we have young women who are survivors who are a 
part of the organization. We have women who are not survivors 
who are part of the organization who are incredible allies. 
Those relationships, I think, begin to--you have to help 
somebody replace what they have experienced. You cannot just 
take away this sense of kind of support, love, dependence upon 
the trafficker or the pimp without helping replace it with 
something. And so you need the wrap-around services, but you 
need to have real relationships in that service, too.
    Chairman Durbin. Ms. Alvarez, in our area of the world, in 
Cook County, if a young lady like Shaquana finally comes out of 
the life and is now looking for some place to go to get herself 
back together--and as Shaquana said, her family was not very 
understanding of this at all. She is lucky she found GEMS. What 
happens to a young woman in Cook County who might go through 
the same experience? Where can she go?
    Ms. Alvarez. You know, there are a lot of service providers 
that we work with on a daily basis. There is a group called 
Promise that is about to open in Oak Park, Illinois, which you 
know just borders the city, a residential home for young women 
in this situation called Annie's House. So we have been working 
very hard with them and organizations like that to help make 
sure that they are provided the services.
    Sometimes what we have seen, because we divert those cases 
out of the system, is that even by doing that sometimes, these 
young girls are not getting the services that they need. 
Recently we had a case where the parents begged us to charge 
her so she would get services, and sometimes we have seen that 
where they have actually had to go in in order to receive the 
services that they need.
    So it is an ongoing effort and case-by-case determination, 
but, you know, I think we are all in need of more services. 
Particularly, I am aware of the work that GEMS does, and it is 
awesome. And we do have groups, you know, such as that in 
Chicago. Promise is one.
    Chairman Durbin. So give me a comparison of the population 
in need of services and the services available, the beds 
available.
    Ms. Alvarez. I think the population in need is much higher 
than the services available. I think that, you know, again, 
this is kind of--it has been silent. It is happening right 
under our noses. And I think sometimes we do not want to accept 
that, but it is there. And so the numbers are probably higher 
than we imagine of young girls out there that need these 
services.
    Chairman Durbin. Most of the social service agencies in our 
State, and I will bet in many other States, are really up 
against it now because----
    Ms. Alvarez. Absolutely. Absolutely.
    Chairman Durbin [continuing]. State and local budgets have 
been cut dramatically, so at a time when we probably did not 
have enough services to start with, we may see those services 
threatened by these budget cutbacks.
    Ms. Alvarez. Absolutely, and you are aware of what is 
happening in Illinois, and we have cut back on so many of the 
funding for social service agencies. So it is really a dire 
time.
    Chairman Durbin. Ms. Phillips, with all the experience you 
have had in this area here, I hate to use the word ``profile,'' 
but can you profile the likely victims? Can you pick out the 
most likely characteristics you are going to find if you look 
at the population of victims?
    Ms. Phillips. Unfortunately, we have found that the victims 
come from a wide variety of different backgrounds, different 
socioeconomic backgrounds, different races. It is difficult to 
profile and, therefore, I think, difficult to sometimes 
prevent. But what we have found most frequently is that they 
are children who have suffered some type of difficulty. Either 
they are runaways, they are throwaways, they suffer some type 
of physical, sexual abuse. There is something missing that the 
pimp can target and thereby manipulate and gain control over 
the victim.
    Chairman Durbin. Tell me, what is the usual contact point 
between the pimp and the victim? Is there a circumstance or a 
place or an environment where this is most likely to occur?
    Ms. Phillips. Unfortunately, in our experience that also 
runs the gamut. It may be a casual acquaintance. It may be 
someone that they have known for a long time. It may be someone 
that they recently met. It may be someone that they have 
recently encountered through conversations on the Internet, 
utilizing the Internet or social networking sites. That is a 
very difficult profile to develop also.
    Chairman Durbin. Ambassador CdeBaca, a question was raised 
earlier about whether the United States is grading the world on 
this issue and willing to let the world grade us, and I know 
that that is one of the things that you are looking into at 
this point in time. Can you tell me how you are going to 
approach that and how you would grade the United States' 
efforts when it comes to human trafficking?
    Ambassador CdeBaca. Well, I am certainly not a 
disinterested party, having been on the front lines of this 
here in the United States. But I think one of the things that 
we are working on right now is work through the Senior Policy 
Operating Group, which is kind of the Assistant Secretary level 
effort across Government, to really pin down how best to gather 
the information to go into the ranking. In the TIP report each 
year, there has been an assessment of the United States, a 
narrative about the United States, but what we have not done is 
we have not applied the 11 minimum standards that you and the 
rest of the Congress gave to us to analyze the countries of the 
world.
    And so the notion, as Secretary Clinton announced last 
June, that we would rank ourselves by those standards so that 
there is this equality out there, and we are not the only 
country that does not get ranked, there is some tension in 
that, obviously, the United States ranking itself as opposed to 
having an outside entity do it. But it is something that we 
definitely want to work through, and so we are working with our 
agency counterparts. We are going to be reaching out to the 
States and locals and then also, importantly, to the 
nongovernmental community. It is just critical that civil 
society be involved.
    Chairman Durbin. Thank you. Some of you who follow track 
are aware of the Drake relays. You are about to witness the 
first annual Illinois-Minnesota Senate relay. We have a roll 
call vote going on on the floor. Senator Franken just voted and 
came back. Now I am going to go vote and then return, and he 
gets to go vote, and so you can time us on this. But thank you, 
Senator Franken, for your cooperation, and I am going to sprint 
out.
    Ambassador CdeBaca. And, Senator Durbin, as an Iowan, I 
would like to thank you for the Drake relay reference.
    [Laughter.]
    Senator Franken. Thank you, Mr. Chairman. Hurry up. I 
caught everything like that, so I got back fast, and I am glad 
I did. But I did miss some of the questioning of the Chairman.
    Thank you all for being here on this heart-rending and very 
important topic. Rachel Lloyd, you said--I wrote down some of 
it--that we turn a blind eye to adult males who provide a 
market, and I am not sure if it was Anita Alvarez or Ambassador 
CdeBaca who said that most prostitutes start in the sex trade 
as a child.
    So I think we should understand that adult males who are 
patronizing prostitutes are continuing this exploitation of 
children. Is that fair to say? Everyone, right? So I think that 
we should understand the seriousness of an adult male 
patronizing a prostitute. And I think we should understand that 
that adult male should be the person who is prosecuted. OK? I 
feel very strongly about that. I feel that the victims are the 
children and the women who are adult children who are the 
result of this exploitation, and that the adult males who 
frequent prostitutes are the ones who should be in prison. And 
maybe that will slow down this market and dry up this market.
    Only 70 beds, that is what I heard from Senator Wyden. That 
is remarkable. That is unbelievable. In this entire country, 70 
beds. Rachel?
    Ms. Lloyd. It is actually less than 50 at this point.
    Senator Franken. Less than 50 beds.
    Ms. Lloyd. It is, like, 47 or 48 beds, specialized for 
victims of commercial sexual exploitation and domestic 
trafficking.
    Senator Franken. I was just in Rochester, Minnesota, where 
there is a home for victims of domestic violence, 11 beds. They 
are 98 percent full. They have to send women from Rochester to 
somewhere else. These are women who may have jobs, have 
children. But this is unbelievable that there are less than 50 
beds. So let us talk about what we do to treat these young 
girls.
    Ms. Alvarez, I know that you have a program in Chicago, a 
comprehensive program. Can you describe it a little bit? I know 
we do one in Ramsey County that is very good.
    Ms. Alvarez. I think what we need to do as prosecutors from 
the law enforcement perspective is handle these cases 
differently, because the traditional way of trying to get at 
the pimp has been to just try to convince the victim--the 
victim, the young lady--to testify, which does not always work, 
obviously, for a variety of reasons. So what we are trying to 
do now is----
    Senator Franken. By the way, I was not talking about the 
pimp. I was talking about the john in terms of where I was--
because Ms. Lloyd said that we turn a blind eye to adult males 
who provide a market. And I think that we cannot escape that, 
that we have to look at the men who patronize prostitutes and 
understand--what percentage of prostitutes were involved as 
child prostitutes? Do we know that?
    Ms. Lloyd. Studies range. Some places say as high as 70 to 
80 percent. We do know that 70 to 90 percent of adult women in 
the commercial sex industry were victims of child abuse, child 
sexual abuse, prior to their entry, regardless of what age they 
entered. So we are talking about a population----
    Senator Franken. So I think adult males in this country 
should be aware of what they are doing. I think law enforcement 
should be aware of what they are doing. They are exploiting 
children. They are continuing the exploitation, the sexual 
exploitation of children, and how serious this is. And I 
understand getting at the pimp is a big part of prosecuting 
this and a big part of ending this cycle.
    Ms. Alvarez. It is attacking the enterprise. The criminal 
enterprise is what it is. And so I think we have to change the 
way we look at these cases and the way we attack them. And, you 
know, they are victim based but not--I believe they should not 
be victim built. The ability to get at this criminal enterprise 
should not be just solely based on the victim. We have to look 
at it as we look at a financial crimes case, as an organized 
crime case, and build it that way in order to attack the 
enterprise.
    That short clip we saw in the film, he said, you know, it 
is a business, it is all about money. And it is. It is all 
about money.
    So from a law enforcement perspective, I think we have to 
attack these cases differently, and on the social service end, 
they need more funding in order to provide. You know, to hear 
the number of beds that are available for these victims is 
outrageous here in our country. So I think it is a matter of, 
you know, more funding for all of our social service providers 
that we deal with.
    Ambassador CdeBaca. And, Senator, I think one of the things 
that is so important about the Trafficking Victims Protection 
reauthorization of 2008 is that it hopefully is going to give 
us some of the tools to do exactly what you are suggesting. The 
numbers have never been disaggregated as far as the FBI's 
Uniform Crime Report, so we never were really able to say how 
many of the 60,000-plus prostitution arrests in the United 
States were for customers as opposed to the women who were 
involved. We could make a rough estimation because it breaks it 
down by men and women. The United States arrests usually 
around--actually convicts somewhere around 22,000 to 26,000 men 
every year for the crime of solicitation of prostitution. We 
lead the world on that.
    But as the President pointed out in his speech in Tokyo, 
our anti-trafficking efforts really need to look at the 
cultural side. We have to work toward a world, as he said, 
where a girl is valued for her contribution and her mind, not 
for her body. And so we are going to be speaking out on that on 
the international level, but at the same time, I think once we 
are able to finally look at that and say in a particular county 
or in a particular city here is what your statistics are, you 
are arresting 80 percent women and only 20 percent of the 
johns, that will then enable the policymakers to say, you know 
what, we need to rebalance this and not just look at it as 
something where you go out and scoop up all the women on the 
street and say that you are doing something about this 
particular issue.
    Senator Franken. The johns have to be arrested at that 
point. I mean, what happens if someone has been discovered to 
have gone to a prostitute?
    Ambassador CdeBaca. Well, I would certainly defer to the 
State's attorney. From my experience as a DA's investigator 
actually doing some undercover work in this field, you have to 
go out and make the transaction. The law----
    Senator Franken. It has to happen at the point of the 
transaction. It cannot happen afterwards.
    Ambassador CdeBaca. The point of transaction is actually 
where you have the crime. It is the notion of the solicitation. 
And so a lot of the enforcement in this field is not that 
police will observe someone with someone who looks like a 
prostitute and then draw that conclusion. That is not really 
something you can based a reasonable doubt determination on. 
Rather, it is often policewomen who are posing----
    Senator Franken. Undercover.
    Ambassador CdeBaca. Undercover.
    Senator Franken. Let us go to preventing this. I was just 
in Duluth, Minnesota, where Lutheran Social Service is 
providing outreach to children, teens usually, who are 
homeless. And I think early in the testimony--it might have 
been Senator Wyden, said many of these victims are runaways, 
and a large percentage of children who find themselves on the 
street are runaways.
    To what extent could we help these kids before they become 
victims by doing social services and outreach and providing 
beds to homeless kids and runaway kids? Anybody?
    Ms. Lloyd. Given, again, the high correlation between child 
sexual abuse and future recruitment into the commercial sex 
industry, we are doing a lousy job on addressing child sexual 
abuse. And many of the children that we see have come into 
contact with multiple social services, multiple times before 
the age of 12, 13, 14 years old, whether it is because of 
domestic violence in the home or because they ran away, whether 
there was sexual abuse, et cetera. And yet those systems are 
failing those children. Over 70 percent of the young people 
that we serve have been in the child welfare system at some 
point. Foster homes and group homes are a prime place of 
recruitment. So our child welfare system, we really need to 
address what is happening to children in our child welfare 
system, too.
    So shoring up those kinds of resources and institutions 
prior to kind of kids hitting 12, 13, 14, when they become so 
vulnerable for traffickers, is critical in terms of addressing 
this issue. And there is a lot more that we could be doing.
    Ms. Alvarez. I think public awareness is key, and that is 
something that you can help with, the Government can help with, 
is public awareness and making people aware that, yes, this 
does happen, and it does not just happen in another country. It 
is happening here in our country. And that is key. You know, 
funding for social service agencies and for law enforcement, 
but also public awareness and making sure that people are aware 
and that they could help provide for these kids.
    Ambassador CdeBaca. I think also one of the things that we 
have seen--and I am drawing on some of the cases that I 
prosecuted--is the notion of we have a child protective 
system--and not just in the United States; I see this in other 
countries around the world. But especially in the United 
States, we have a child protection system that has this 
fostering and the group home type of model which works for most 
kids. It is the thing that applies kind of across the board. 
But one of the things that we see, whether it is a U.S. citizen 
child or whether it is a foreign victim, is that the 
trafficking victim often needs more. The things that happen to 
a child in prostitution are so grave that it is not necessarily 
something that a good-hearted person who has got a couple of 
foster kids in their house can really even fathom as to what 
that child needs.
    And so if our response then ends up being let us take this 
child and then put them into that system, that system is not 
designed for that child. And I think that that is one of the 
things where we see with GEMS, where we see with a number of 
the other folks who are really wrestling with this, is how do 
you provide that overlay to the child protective system.
    Also, we end up having mixed populations. One of the things 
that I have seen in some of my cases was that you would have 
adult women and girl children who clung to each other for 
safety while they had the pimp who was abusing them, and then 
our response typically with the child protective services is to 
say, OK, everybody under 18, you go this way, everybody over 
18, you go this other way. And what we have done at that point 
is we have torn the very thing that allowed them to survive 
apart.
    So I think that notion of how do we look at the whole 
victim and then how do we try to make our systems address 
that--and, again, this is something that we are trying to have 
that conversation around the world so that countries look at 
what is best for the child, what is best for the trafficking 
victim, rather than how have we always done it.
    Senator Franken. Rachel and Shaquana, I wanted you to speak 
to this part, which is the most effective way to treat victims.
    Ms. Lloyd. Well, I think specialized services are critical, 
but to go to the Ambassador's point, I think training for first 
responders, child welfare workers, law enforcement, emergency 
room nurses, et cetera, is critical. People are coming into 
contact with this population all the time. They either do not 
know how to recognize it, or they recognize it and they are 
incredibly judgmental and stigmatize young people. They do not 
know how to have the conversation. If they do, they do not know 
where to refer.
    We do a lot of training, both local and nationally, and we 
have found that when folks are trained and feel equipped, they 
can have the conversation. If you were working in a runaway and 
homeless youth center and you do not ask how a young person has 
been surviving for the last 3 months at the age of 15 on the 
street, they have had to exchange something in exchange for 
something. But those questions are not even being asked. They 
are not even mandatory on a lot of intake forms in child 
welfare, et cetera.
    There are some really simple things that we can do in terms 
of training and technical assistance with some of these larger 
institutions that could really shore up that support. In terms 
of--and so recognizing that specialized services will never be 
able to serve everybody, but there is a real need for those 
specific services where young people can be around other young 
people who have had those same experiences. They can see 
adults, young women, role models who, when you are in the life, 
you do not see anyone else who has successfully come out of the 
life. Anybody who is an older woman is struggling at that 
point, or people die or people go to jail. So to be able to see 
young women, adult women who are going to college and working 
and walk in the front door----
    Senator Franken. They have come through the other side.
    Ms. Lloyd. That is so critical, and we know that. We know 
that that works in substance abuse. We know that that works in 
domestic violence treatment and rape crisis treatment. Having 
people who have experienced the same things makes people feel 
comfortable. And girls need comprehensive, long-term services. 
The vast majority of the girls we work with do not have a 
really strong family structure. There may be some family 
members that we can help support, but they are going to need 
services for a really long time. And so kind of rescuing kids 
and taking them out of the situation and--I mean, you have to 
be able to kind of provide long-term, strengths-based youth 
development services up until young adulthood so that they can 
make a transition in their early 20's into kind of being 
independent.
    Senator Franken. Shaquana, I saw you do a lot of nodding 
while Rachel was speaking. Can you speak to this?
    Shaquana. One of the things that I would like to say is 
especially as I am an outreach worker and I go to juvenile 
detention facilities--you know, just maybe 2 weeks ago, I 
witnessed a staff member say something that was really rude to 
a girl that, you know, they know what they are there for and 
they expose their business in it, helps the girls to continue 
to feel worse about themselves as if there is something wrong 
with them. And it can make it hard for them to understand what 
it is that I am talking about, and it is important that I be 
there, like I was saying before, to help them understand that 
they do not have the right to say that to you, that you do not 
deserve to be here in the first place, and that, you know, 
there is a place where you can come and get services and that 
you do not need to be detained to learn some lesson, you know?
    And I think even with myself it has been extremely 
important that even as I went back to school, even though I was 
not in the life, I had to still learn what it meant to be in a 
healthy relationship and live with my family and how to deal 
with certain things that I had never dealt with before. I had 
to learn what it meant to be a kid and that, you know, I have 
people in my life to help me, and I have to, you know, ask for 
their help and know that they are going to be there for me.
    Senator Franken. And you became valedictorian of your 
class.
    Shaquana. Yes.
    Senator Franken. I just want to underline that, what an 
unbelievable achievement that is. GEMS must be doing something 
right, and you must have something to teach everybody. So thank 
you, Ms. Lloyd and Shaquana, just unbelievable, what a great 
thing. And now you are going to college, right?
    Shaquana. Yes.
    Senator Franken. That is pretty cool.
    Ms. Phillips. Senator, if I may interject, I think that 
Shaquana and Ms. Lloyd bring up excellent points, and another 
critical component is identifying the potential victims as 
early as possible so that these services that they have 
described can begin delivery at the earliest possible point.
    I think it is important, as Ms. Lloyd indicated, that we 
educate law enforcement officers, social service providers, 
anyone who may potentially come in contact with these victims, 
to ask the right questions so that the victims may be 
identified through the series of questions. I think that the 
task force model is critical in terms of identifying the 
various entities and agencies that may come in contact with 
potential victims and training them so that they can identify 
the victims at the earliest point possible.
    Senator Franken. I want to go back to something that I 
started with, which is, to what extent is stigmatizing--because 
Ms. Lloyd talked about giving a pass to the johns and we also 
talked about public awareness. To what extent is it crucial to 
stigmatize the people, the men who patronize prostitutes and 
get everyone to understand that what they are doing is 
continuing the exploitation of children?
    Ms. Lloyd. I think that right now what is happening is 
victims are being stigmatized. The agency that Ms. Alvarez just 
mentioned was Case out in Chicago, they did a fantastic study 
on demand and interviewed 200, 300 men who had bought sex at 
some point in their lives, and most of these men--A, a large 
percentage of these men said that they knew that women--they 
believed that women probably had been sexually abused, that 
they probably were on drugs, they probably did have a pimp. 
They did not really care.
    What they did care about, though, was being embarrassed in 
front of their families, in front of their work colleagues, 
having a fine, having their car taken away. If they were 
shamed----
    Senator Franken. But if that happened to the johns----
    Ms. Lloyd. Yes, they----
    Senator Franken.--might the demand go down and may we save 
some of our children?
    Ms. Lloyd. Yes, and right now they have talked about--the 
panel has talked about kind of this low risk, low investment, 
high return, high yield for traffickers. The demand is there. I 
mean, if we are talking about potentially 100,000 children in 
this country who have been sexually exploited, how many men are 
buying them?
    Senator Franken. I am sorry, Ms. Lloyd. I need to go vote, 
Mr. Chairman.
    Chairman Durbin. Thank you. Thank you, Senator Franken.
    Senator Franken. Thank you.
    Chairman Durbin. Thank you all, and I apologize for this, 
but it happens from time to time. We had two roll call votes 
underway.
    Shaquana, I would like to go back to you, if I could, and 
ask a question or two about your role, your relationship with 
the police when you were involved in this and you were 
arrested. Did you feel at any point along the way with the 
police or with the prosecutor's office that there was an effort 
or an outreach to avoid your being charged with a crime?
    Shaquana. No. Like I said, if it wasn't for me actually 
finding the outreach team and, you know, them asking me is this 
what has happened to me and that this is a place that you can 
go to, I would have been sent upstate to serve maybe 6 months 
in jail. I mean, I even remember, as I was telling you before 
about how I had been injured, I was in New Jersey, and I had to 
come back to New York. And I remember coming in contact with 
police and begging them to take me to the hospital and call my 
mother. You know, at the time I was only 16 years old, and I 
was extremely beaten up, and they wanted to do nothing. I had 
to beg them.
    Chairman Durbin. In terms of support from family and 
friends, did you have any at that point?
    Shaquana. No. There were times, you know, where I would be 
living at home, and if someone got mad at me, or whatever, they 
were calling me out of my name, and it made me feel extremely 
uncomfortable, living in my home with people that were supposed 
to be my family.
    Chairman Durbin. Can I ask, Ms. Lloyd, when I hear about 
the women who are--young women who are victimized here, there 
are some parallels to the victims of domestic violence, too.
    Ms. Lloyd. Yes.
    Chairman Durbin. Is there a way to coordinate the services? 
Because I am afraid, as Ms. Alvarez has said, we have few 
services to start with, and with budget cutbacks, even fewer. 
Are there ways to coordinate efforts here with other agencies 
that are involved in domestic violence to help these victims?
    Ms. Lloyd. Yes, I definitely think that the domestic 
violence and sexual assault movements need to embrace this 
issue. The young people that we serve are indeed victims of 
domestic violence and sexual violence.
    In terms of kind of specialized services, it has been our 
experience in New York, particularly--and I have heard this 
from many services providers--while we will not tell somebody 
when they are calling--and this is for older girls because 
obviously underage girls cannot go to a domestic violence 
shelter. But for our older girls, if they call a domestic 
violence shelter, we advise them that sharing your trafficking 
situation may not be wise in terms of you getting a bed.
    Chairman Durbin. Why? Tell me----
    Ms. Lloyd. Because they will be refusing housing generally. 
They will generally be refused shelter if they say that their 
abuser was a pimp, a trafficker, because many domestic violence 
shelters feel like that is a different type of victim, not a 
real victim, or they are worried about the trafficker coming to 
their shelter, et cetera, and they do not see it as kind of 
their issue.
    So, I mean, we have seen a lot of girls turned down because 
they have been honest about their situation, and you are right. 
I mean, the parallels to domestic violence, the psychological 
manipulation, kind of the attempts to leave and go back and 
leave and go back, are very similar.
    So, I mean, there is much, I think, we could share with the 
domestic violence movement, but they have to really embrace 
this issue. And there is a difference in terms of kind of the 
systems that are set up. There are not domestic violence 
shelters for 15-year-olds. That is a child welfare issue.
    Chairman Durbin. How many years did it take you to get the 
Safe Harbor bill through the New York Legislature?
    Ms. Lloyd. Four and a half long years.
    Chairman Durbin. Congratulations.
    Ms. Lloyd. Painful years.
    Chairman Durbin. Ms. Alvarez, have you taken a look at this 
New York law? Are you familiar with it?
    Ms. Alvarez. I am familiar with it, and actually we have 
been looking and we have contacted with Polaris, and we are 
going to--we are in the drafting stages of something for 
Illinois.
    Chairman Durbin. Good.
    Ms. Alvarez. We are not there yet, but it is something that 
we are taking a great look at.
    Chairman Durbin. Well, perhaps we can ask our State 
Attorney General to take a look at it, too. It would be good if 
we could join efforts on that, and I would be glad to help in 
that regard.
    Ms. Phillips, you did some work in the computer Internet 
area, too, which is obviously part of this exploitation. Is 
there more that we can or should do? Do you feel that the 
technology is moving faster than our surveillance?
    Ms. Phillips. Well, unfortunately, it is always a challenge 
to keep a step ahead of the criminals, and especially in the 
computer crimes area where the technology moves at just a 
breakneck speed.
    I can say that through the development of the regional 
computer forensic laboratories and a greater focus on the 
amount of information that is out there through computer 
forensics, we have been able to better address the problem and 
pursue a more significant number of child exploitation cases 
that are investigated through the use of computers or the 
Internet.
    Chairman Durbin. Ambassador, Beth Phillips noted in her 
testimony that the Justice Department is currently funding 
research into the prevalence of commercial sexual exploitation 
of children in our country, and the findings are due in early 
2011. Do you believe this ongoing DOJ research will help 
address the concerns of the U.N. Committee on the Rights of the 
Child?
    Ambassador CdeBaca. I think it will, Senator. I think that 
one of the things that as we look to see how best we can 
respond to our treaty obligations and how best we can respond 
to our obligations under the Palermo Protocol to not just 
prosecute and protect but also to prevent trafficking, the 
research side becomes critically important.
    So through this Senior Policy Operating Group, the 
interagency process, one of our subcommittees is the Research 
Subcommittee, and we are working very closely with the National 
Institutes of Justice to try to do that kind of research both 
here and overseas as well.
    Chairman Durbin. Well, I thank you all on this panel, and 
for your patience as Senator Franken and I moved back and 
forth, and especially for coming here today.
    We have received a number of written statements in 
conjunction with today's hearing, and with unanimous consent, I 
will place them in the record. They include statements from the 
Chicago Alliance Against Sexual Exploitation and Shared Hope 
International.
    [The statements appears as a submission for the record.]
    Chairman Durbin. If there are no further comments from our 
panel, I am going to bring this hearing to a close, again 
thanking Ms. Spears, for your inspiration, being a catalyst for 
our coming together today, and for action that will follow up.
    This hearing record will remain open for a week for 
additional materials from other members of the Committee and 
interested individuals and organizations. Written questions may 
be sent to members of the panel. I hope you can try to address 
them in a timely way if they come to you.
    The last time our Subcommittee met, we addressed the 
question of how well our Nation is implementing our human 
rights treaties. The subject of today's hearing, child sex 
trafficking, implicates the Optional Protocol on the Sale of 
Children, Child Prostitution, and Child Pornography. Changing 
the way our Government treats victims and survivors of child 
sex trafficking will help us comply with this treaty 
obligation.
    Shaquana reminded us that treaties need to be more than 
just abstract legal documents. They protect America's children 
from the horrific forms of abuse and exploitation which have 
been described here today. As we lead the fight for human 
rights around the world and against human trafficking, we have 
a legal and moral obligation to protect our own children right 
here in America.
    This hearing is adjourned. Thank you very much.
    [Whereupon, at 10:46 a.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
